<html>
<title> - FBI HEADQUARTERS CONSOLIDATION PROJECT-WHAT HAPPENED AND WHAT'S NEXT</title>
<body><pre>[Senate Hearing 115-115]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-115
 
                    FBI HEADQUARTERS CONSOLIDATION 
                 PROJECT-WHAT HAPPENED AND WHAT'S NEXT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 2, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  





                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-509 PDF              WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   

  


        Available via the World Wide Web: http://www.govinfo.gov
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             AUGUST 2, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     4

                               WITNESSES

Gelber, Michael, Acting Commissioner, Public Buildings Service, 
  U.S. General Services Administration...........................     6
    Prepared statement...........................................     8
    Responses to additional questions from:
        Senator Barrasso.........................................    13
        Senator Carper...........................................    13
        Senator Cardin...........................................    17
        Senator Harris...........................................    20
        Senator Shelby...........................................    22
Haley, Richard L. II, Assistant Director/Chief Financial Officer, 
  Finance Division, U.S. Federal Bureau of Investigation.........    25
    Prepared statement...........................................    27
    Responses to additional questions from Senator Cardin........    32
Wise, David, Director, Physical Infrastructure Team, U.S. 
  Government Accountability Office...............................    34
    Prepared statement...........................................    36
    Responses to additional questions from:
        Senator Barrasso.........................................    51
        Senator Cardin...........................................    52


 FBI HEADQUARTERS CONSOLIDATION PROJECT--WHAT HAPPENED AND WHAT'S NEXT

                              ----------                              


                       WEDNESDAY, AUGUST 2, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Capito, Boozman, 
Wicker, Rounds, Ernst, Cardin, Gillibrand, Booker, and Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order. I want to thank everyone for coming to be with us today.
    We have convened this hearing to listen to testimony from 
Government witnesses from the General Services Administration, 
the Federal Bureau of Investigation, and the General 
Accountability Office about the cancellation of the FBI 
Headquarters consolidation project and what comes next for 
housing the FBI.
    The canceled project would have replaced the current FBI 
Headquarters, the J. Edgar Hoover Building, located at 935 
Pennsylvania Avenue, with a new headquarters in either Maryland 
or Virginia.
    The project involved an exchange of the J. Edgar Hoover 
Building to a private developer. The developer would then in 
turn construct a campus-like facility with proper safeguards 
for security, suitable for the FBI's new focus as more of an 
intelligence agency as opposed to simply a law enforcement one. 
The new facility would also consolidate the myriad of FBI 
satellite offices, which would make the Bureau more efficient 
and save taxpayer dollars.
    I have no doubt that there is a need to replace the FBI's 
existing headquarters. The men and women of the FBI who keep us 
safe deserve an office building that meets their needs. The 
security and efficiency arguments for their case are clear. 
What is not clear is why the project was suddenly halted, why 
Congress was not notified in advance, and what happens now. 
Senators should not have to find out about a decision of this 
magnitude by reading about it in the Washington Post.
    Regardless as to how this decision was made and how poorly 
it was rolled out, it is possible that the mechanics of this 
deal led to this eventual outcome. The exchange of the J. Edgar 
Hoover Building, which was at the heart of this proposal, may 
have been doomed from the start. According to the GSA Inspector 
General, only eight building exchanges of this type had ever 
been executed prior to the start of this project, and none of 
those exchanges involved a building worth more than $11 
million. And while there is one significant exchange in the 
pipeline, it is not yet complete.
    The exchange of the J. Edgar Hoover Building, a much larger 
building than any of the other completed projects, located in 
heart of the nation's capital, on one of America's most famous 
streets, is in a completely different league. The questions now 
are: Where do we go from here, and how do we find a solution?
    The FBI needs a new headquarters. How do we get there and 
what do we do in the interim to address the FBI's needs? Does 
it make sense to pump millions of taxpayer dollars into the J. 
Edgar Hoover Building to upgrade it, only to tear the building 
down in a few years, especially since there is over $100 
million in pending repair and maintenance needs in the building 
today?
    Should the FBI pare back its many requirements for a new 
facility, reducing its size and scope to make it more 
affordable for the American taxpayer? Should we look at 
alternative financing mechanisms, such as a lease buyout 
arrangement where a developer constructs and leases a facility 
to the FBI, with the agency having the option to buy the 
facility years in the future?
    These are all topics for this hearing today. I look forward 
to the testimony.
    I would now like to recognize Ranking Member Carper for his 
opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. Our thanks to you.
    I wanted to thank you and Senator Cardin--especially your 
staffs--for all the work that you have done on this issue, 
important issue not just for the FBI, not just for Maryland, 
the District of Columbia, and Virginia, but really for our 
country.
    We are blessed by the men and women who serve us in the 
FBI, also in GSA and GAO. I want to just say that right from 
the outset. We have been blessed by wonderful leadership at the 
FBI for years. We have a newly confirmed FBI Director, 
Christopher Wray. He was confirmed yesterday. I think he will 
be a good one. And he follows on the heels of two really good 
ones in Jim Comey and Bob Mueller, and we are grateful for 
their leadership and continued service to our country.
    I think it is safe to say that we have more questions than 
answers surrounding this recent decision by GSA to cancel a 
procurement for a consolidated FBI headquarters. I am hopeful 
we can learn some of those answers here today.
    Prince George's County is home to two of the three final 
locations for the new FBI headquarters. The other was in, I 
believe, Springfield, Virginia. The decision to cancel this 
consolidation was a shock to those jurisdictions, and it was a 
shock to me, and it is going to have a significant impact on 
the region.
    And I have concerns--I know many of my colleagues share 
them--regarding the move by GSA to cancel the procurement 
process. My concerns range from the lack of consultation with 
Congress, to the impacts on national security, to the excess 
cost that this decision will impose on the Federal Government.
    However, I would say that my largest concern is where do we 
go from here. So much energy has already been invested in this 
endeavor, only to have the process halted without an 
alternative plan. We can all agree that there is an obvious 
need to move the FBI out of the Hoover Building to a new 
location and to consolidate other FBI locations.
    Simply put, the Hoover Building is an aging building that 
no longer meets the needs of the FBI in the 21st century. It 
suffers significantly from deferred maintenance, and the 
employees bear the brunt of that lack of investment. Further, 
the status quo, with the FBI scattered across several 
locations, a number of locations throughout the D.C. 
metropolitan area, is simply unacceptable for the agency to 
carry out its mission and approve our national security.
    It reminds me a little bit of the situation the Department 
of Homeland Security is in. Some of us serve on the Committee 
on Homeland Security and Governmental Affairs, and they are 
spread over almost a half-acre and are trying to consolidate 
the bigger part of their Department in St. Elizabeth's, and 
hopefully we will be able to carry that out and get that done 
over the next couple of years.
    But with increasingly tight budgets, deferred maintenance 
on the Hoover Building, and expensive commercial leases for FBI 
annexes and satellite offices, it would seem to make sense to 
me to consolidate the FBI under one roof, or something close to 
one roof.
    As stewards of the Federal purse, we should be ensuring 
that we are doing all that we can to save taxpayer dollars and 
create efficiency in Government, including with respect to 
property management, something that Tom Coburn and I--former 
Senator from Oklahoma--and others have worked on, Rob Portman 
and others have worked on for years with many of you.
    We should also ensure that, when appropriate, Congress 
provides adequate funding for construction projects that will 
help agencies meet their missions. For the last several years I 
have been, as I said earlier, a strong advocate for 
consolidating the Homeland Security's headquarters at St. 
Elizabeth's. It just makes sense; it makes dollars and cents; 
enhances morale and makes more efficient, and frankly, gets 
them out all these leased spaces that we are paying a lot of 
money for all over this part of America.
    Let me just close by saying without adequate funding from 
Congress in the years to come, this FBI project, the St. 
Elizabeth's project may face unacceptable cost escalations and 
delays that are wholly preventable through our action. This is 
on us, on Congress.
    Mr. Chairman, look forward to hearing this all-star lineup 
of witnesses, and I would ask them all to do what Gene Dodaro 
does when he comes and testifies before us, to do it all off 
the top of their heads and use no notes, and to accept no input 
from their staffs, and we will be on our way and get a lot 
done. Thank you very much.
    Senator Barrasso. Thank you, Senator Carper.
    Before we turn to our witnesses, I would like to invite 
both the Chairman and Ranking Member of the Transportation and 
Infrastructure Subcommittee, which has jurisdiction over public 
buildings, to make a statement if they would like.
    Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Chairman Barrasso, first of all, thank you 
so much for holding this hearing. After GSA announced that they 
were terminating the consolidation of the FBI prospectus, you 
and I talked and you immediately offered to hold this hearing, 
and I want to thank you very much for that. I want to thank 
Ranking Member Carper for his cooperation in scheduling this 
hearing.
    I want to start by just expressing a great deal of 
frustration as to how this process has gone forward. The delay, 
the mixed messages that we have received on financing, and the 
ignoring of the action of this Committee and of Congress. As a 
result, there has been a waste of taxpayer money--significant 
waste of money--and we have compromised the FBI's ability to 
carry out its critical mission. That is plainly unacceptable, 
and I think this Committee deserves an explanation.
    I hope today that there will be a way forward, that we can 
move toward a consolidated facility for the FBI in a very quick 
way, so that we can move on for the taxpayers of this country 
and the important mission that the FBI carries out.
    So let me elaborate on what I just said.
    The FBI has been in the Hoover Building since 1974. It 
lacks usable space. They are in 15 different leased locations 
around the District of Columbia, causing an inefficiency in 
their operations, additional costs to the taxpayers, an 
inability to collaborate, which is important for the FBI to 
carry out its function, and it lacks the security that is 
necessary for the FBI. All that is known; it has been known for 
many, many years. There were reports done 7 years ago, 8 years 
ago.
    In 2011 the GSA, FBI came to this Committee and said we 
need help; do something about it. And in 2011--6 years ago, Mr. 
Chairman--this Committee took action. We passed a prospectus in 
2011. That prospectus said very clearly you are directed to 
proceed with a private sector lease transaction on federally 
owned land for a consolidated headquarter facility. We 
recognized that. We gave you the authority.
    When we give you the authority, we expect that that is 
going to be carried out and that you are going to work with 
this Committee.
    So what happened next? Well, GSA and OMB said, no, we don't 
want to use a leased facility; we want to pay for it up front. 
Now, that is a heavy lift, to put all that money in the budget, 
for Congress to be able to put in excess of $1 billion at the 
time, now close to $2 billion, into a budget in 1 year to pay 
for one consolidated facility. But that is what GSA and OMB 
wanted, so we proceeded with that. Congress cooperated.
    In fiscal year 2016, $390 million was put into the 
appropriation bill. In fiscal year 2017, $523 million 
additional dollars were put into the appropriation process. In 
addition, the Appropriations Committee, in their report, made 
it clear that they would provide the additional moneys in 
fiscal year 2018 necessary to complete the project. And as the 
Chairman pointed out, this was based upon the exchange of the 
Hoover Building, which added additional resources to this 
project.
    In 2013 GSA went forward with the Request for Information. 
Three sites were selected; seven proposals were filed. And GSA 
came back to this Committee in 2016, said we should update the 
prospectus in order to comply with how GSA was proceeding. We 
passed a new prospectus for you in 2016, giving you all the 
authority you needed, so what happened next is very hard for us 
to understand.
    President Trump's fiscal year 2018 budget contained zero 
for the FBI. We don't exactly understand that if we are 
proceeding with a cash transaction. Congress was prepared to 
move forward, as I have already indicated, by the report 
language we put in and the moneys that we put in.
    And then what I don't understand at all--and I hope this is 
explained to me--on July 12th, 2017, without notice to this 
Committee, GSA cancels the procurement. Cancels the 
procurement. OK, why? Not enough money appropriated by 
Congress?
    Well, the Congress put a large sum of money. The President 
said it didn't need any more money, because he put no money in 
the fiscal year 2018 budget. Was it canceled because you want 
to go now to a lease arrangement? We gave you that authority in 
2011, to use a lease authority. Why would you cancel and not 
come back to us and say we're changing directions? Are you 
saying we don't need a consolidated facility for the FBI? I 
hope that is not the case, because the FBI needs a consolidated 
facility.
    So I hope we get some answers as to why it was handled in 
this way. And how can we move forward in an appropriate way, 
but in a way that recognizes the NEPA studies have already been 
done on these three locations; we know about that. We already 
have a lot of the work done.
    I think GSA has created a legal problem now because of the 
word cancellation of the prospectus. I don't understand why you 
did that, but maybe you can explain how we are going to move 
forward and how you are going to respect the will of this 
Committee and Congress. When we told you originally to use a 
lease purchase, you came back and said you wanted to use 
appropriations. We provided the money, and then you don't go 
forward.
    I hope we get some answers.
    Senator Barrasso. Thank you very much, Senator Cardin.
    We are now going to hear from our witnesses.
    We have joining us today Mr. Michael Gelber, who is the 
Acting Commissioner of the General Services Administration, 
Public Building Service; we have Mr. Richard Haley, who is the 
Assistant Director and Chief Financial Officer of the Federal 
Bureau of Investigation Finance Division; and Mr. David Wise, 
who is the Director of Physical Infrastructure Team of the 
General Accountability Office.
    I would like to remind the witnesses that your full written 
testimony will be part of the official hearing today, so I 
would ask that you please keep your statements to 5 minutes so 
that we may have time for questions.
    Mr. Gelber.

   STATEMENT OF MICHAEL GELBER, ACTING COMMISSIONER, PUBLIC 
    BUILDINGS SERVICE, U.S. GENERAL SERVICES ADMINISTRATION

    Mr. Gelber. Thank you.
    Good morning, Chairman Barrasso, Ranking Member Carper, and 
members of the Committee. My name is Michael Gelber, and I am 
the Acting Public Building Service Commissioner of the U.S. 
General Services Administration. Thank you for the opportunity 
to testify today.
    I wish to discuss how GSA and the Federal Bureau of 
Investigation jointly determined that the J. Edgar Hoover 
Building no longer meets the needs of the FBI. I will also 
discuss why GSA initially used the exchange process to help 
obtain a modern replacement facility, but ultimately reached 
the decision to cancel the procurement. Finally, I will discuss 
how GSA and the FBI are working together to meet the FBI's 
housing needs and mission requirements going forward.
    In 2011, in accordance with the resolution adopted by this 
Committee, GSA issued a Report of Building Project Survey. The 
report evaluated the following four strategies to deliver a 
modern headquarters for the FBI: Federal construction, lease 
construction, ground lease-leaseback, and acquisition by 
exchange. A 30 year net present value cost analysis of all four 
options determined that Federal construction was the most cost 
effective approach to provide a replacement consolidated 
headquarters facility to house the FBI.
    Under the present scoring rules agreed to by the 
Congressional Budget Office, the budget committees, and the 
Office of Management and Budget, a lease construction or ground 
lease-leaseback transaction would require full funding up 
front. A new FBI headquarters is a long term Federal need for 
which Federal ownership has been shown to be the lowest cost 
alternative. GSA seeks to develop Federal capital projects that 
allow GSA to meet agencies' mission needs while pursuing the 
best value for the American taxpayer.
    To address Federal capital needs generally, GSA has a 
mechanism that is not being fully utilized, the Federal 
Buildings Fund. GSA has a significant backlog of unfunded 
capital projects resulting from less than full appropriation of 
the GSA rent collections in fiscal years 2011 to 2017. Full 
access to GSA rent collections for investment in capital 
projects is necessary to maintain the portfolio and deliver 
priority, mission critical Federal facilities.
    In parallel, GSA recognizes that up front funding can be 
viewed as an impediment to making key investments, but under 
the current scoring rules it is also the way for the Federal 
Government to record Federal spending. This Administration is 
considering a number of new Federal tools to support better 
decisionmaking while maintaining transparency and fiscal 
restraint.
    Given these facts, GSA determined that an exchange of the 
Hoover Building for a new facility of up to 2.1 million square 
feet was the most viable funding mechanism to consolidate 
personnel from the Hoover Building and multiple leased 
locations at the lowest possible cost. The exchange process can 
facilitate the disposal of agency properties that do not meet 
the Federal need by allowing GSA to leverage its owned 
inventory to acquire new and more efficient facilities.
    GSA worked closely with the FBI, Congress, State and local 
governments, and the private sector to meet project milestones. 
To this end, GSA selected three preferred sites and a number of 
preferred developers. As part of this process, GSA also 
analyzed all three preferred sites pursuant to the National 
Environmental Policy Act. Earlier this year, GSA communicated 
that, should full funding be provided, we stood ready to select 
the developer and make an award.
    In May of this year Congress passed the Fiscal Year 2017 
Omnibus Appropriations Act. Under the Act, GSA received $200 
million, and the FBI received $323 million of a combined $1.4 
billion request. This resulted in a funding gap of $882 million 
from the requested level.
    Following the enactment of the Fiscal Year 2017 Omnibus, 
GSA considered various potential paths forward to address the 
project's $882 million funding gap. After internal and 
interagency deliberations, GSA determined that moving forward 
without full funding would put the Government at risk for 
project cost escalations. Additionally, both GSA and the FBI 
expressed concerns about the potential reduction in the value 
of the Hoover property, since developers were scheduled to 
receive the property once the new FBI consolidated headquarters 
are completed. As a result, GSA decided, in consultation with 
the FBI, to cancel the procurement.
    It is fair to say that the cancellation of the procurement 
was not the desired outcome. Members of this and other 
congressional committees, along with Federal, State, local, and 
private sector partners, put a tremendous amount of time, 
energy, effort, and resources into delivering a modern FBI 
headquarters.
    At this time, GSA and the FBI are working together to meet 
the FBI's short and long term housing needs and mission 
requirements. This review includes deciding what investments to 
make in the Hoover Building now that we know that the FBI will 
be housed there for longer than expected. Additionally, the 
FBI's portfolio of leased space is being evaluated, as well as 
options to procure a new headquarters for the FBI.
    In closing, GSA is committed to carrying out our mission of 
delivering the best value in real estate. The need for the FBI 
to have a modern headquarters remains.
    GSA will continue to work with members of this Committee, 
the FBI, and others in the Administration and Congress to meet 
this need.
    I thank the Committee for the opportunity to testify today, 
and I look forward to answering your questions.
    [The prepared statement of Mr. Gelber follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Senator Barrasso. Thank you very much, Mr. Gelber.
    Mr. Haley.

  STATEMENT OF RICHARD L. HALEY II, ASSISTANT DIRECTOR/CHIEF 
  FINANCIAL OFFICER, FINANCE DIVISION, U.S. FEDERAL BUREAU OF 
                         INVESTIGATION

    Mr. Haley. Thank you, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee for allowing me to appear 
before you today to discuss the importance of the FBI 
headquarters facility project.
    Sitting before you today, I represent a number of 
individuals at the FBI that have spent years of making this 
project a reality, a reality that we have not lost sight of 
despite this current setback.
    Mr. Chairman, as you and Senator Carper and Senator Cardin 
have mentioned, and I will just briefly reiterate, this 
Committee is very well aware the J. Edgar Hoover Building was 
designed in the 1960s to meet an FBI mission of that time that 
was largely criminal in nature, most of which was done by each 
of our field offices, and the headquarters building was really 
just a national police precinct to coordinate those efforts. 
When occupied in the mid-1970s, nearly half of the building was 
designed for our laboratory functions, fingerprint operations, 
and paper records storage requirements. All of those functions 
have been moved decades ago.
    Today, in addition to the lack of infrastructure and 
security required to meet the mission needs, the building 
struggles to keep up with the organization's need to continue 
to be more and more threat focused, intelligence driven, an 
organization that must be able to rapidly address developing 
threats and collaborate across multiple operational programs.
    Our headquarters is the hub of this coordination for 
intelligence and information sharing among our State, local, 
Federal, and international partners. It coordinates what is 
happening among our 56 field offices and over 300 resident 
satellite offices across the country and more than 70 offices 
overseas where we liaison with our foreign partners. It also 
operates as the nerve center of the organization in times of 
national crisis or emergency during major cases and operations. 
The current structure of the J. Edgar Hoover Building does not 
allow for us to coordinate this effectively or efficiently. The 
building itself is not only inefficient, but the technology and 
the physical limitations continue to suffer. Everything takes 
more money and more time to get things done.
    Aside from the physical infrastructure, virtually all of 
the critical building systems--mechanical, electrical, and 
plumbing--have deteriorated and are either at the end of their 
life or beyond their useful life.
    While the FBI is disappointed the procurement that would 
have provided the FBI with a facility that meets our mission 
needs was canceled, it does not change the fact, as you have 
mentioned, that the FBI needs a consolidated, secure, resilient 
intelligence community-worthy facility, a facility capable of 
meeting the increased demands of the nation's premier 
intelligence and law enforcement organization.
    In conclusion, the FBI's requirements for enhanced safety, 
security, flexibility, and collaboration have not changed. How 
we achieve this will need to be reexamined, as you have stated, 
to get to a successful outcome. Therefore, we appreciate your 
interest with this hearing and ask for your continued support.
    I am happy to answer any questions.
    [The prepared statement of Mr. Haley follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. Thank you, Mr. Haley.
    Mr. Wise.

  STATEMENT OF DAVID WISE, DIRECTOR, PHYSICAL INFRASTRUCTURE 
          TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Wise. Chairman Barrasso, Ranking Member Carper, and 
members of the Committee, thank you for the opportunity to 
discuss our work on GSA's efforts to consolidate the FBI's 
headquarters and the challenges funding large real property 
projects. My statement will discuss three key points: the 
status of the FBI's Hoover Building, GSA efforts to implement 
real property swap exchanges, and alternative approaches to 
funding real property projects.
    In November 2011 we reported that over the preceding decade 
FBI and GSA studies determined that the Hoover Building no 
longer fully supported the FBI's long term security space and 
building condition requirements. Due to the lack of space, FBI 
functions have been disbursed in various annexes around the 
national capital region and other locations. In the 2011 
report, we also noted that the condition of the Hoover Building 
was deteriorating, and GSA assessments identified significant 
recapitalization needs.
    In 2017 we reported that several FBI field offices are in 
facilities owned by foreign entities, which could present an 
added security risk.
    GSA proposed exchanging the Hoover Building, plus cash, to 
a developer in exchange for construction of a new headquarters 
building in one of three locations: Greenbelt, Maryland; 
Landover, Maryland; and Springfield, Virginia. However, in July 
2017 GSA canceled the procurement because, according to GSA and 
FBI officials, they lacked the funding necessary to proceed. 
GSA officials stated that GSA and the FBI would continue to 
work together to address the space requirements of the FBI.
    GSA continues to face challenges related to funding new 
construction projects due in part to budget constraints. Using 
available legal authorities, GSA has proposed exchanging title 
to some federally owned real property for other properties or 
construction services, known as swap exchanges. This was the 
plan for replacing the Hoover Building. Such exchanges can be 
of equal value or can include cash to compensate for a 
difference in value between the Federal property and the asset 
or services to be received by the Federal Government.
    GSA has limited experience successfully completing swap 
exchanges and has only completed a few relatively small 
exchanges since 2001, both under $10 million. In our 2014 
report, we reviewed five projects where GSA proposed and 
subsequently canceled swap exchange procurements. For example, 
GSA officials told us that there was little or no market 
interest in Baltimore and Miami properties. From 2012 to 2015 
GSA pursued a large swap exchange potentially involving up to 
five properties in the Federal Triangle South area of 
Washington in order to finance construction of GSA headquarters 
and other Federal properties. In 2013 GSA decided to focus on 
exchanging only two buildings, the GSA Regional Office Building 
and the Cotton Annex. In February 2016 GSA canceled the 
procurement, stating that private investor valuations for the 
two buildings fell short of the Government's estimated values, 
as well as the amount GSA required to complete its other 
projects.
    Subsequently, GSA officials noted that they planned to 
improve the swap exchange process, including property 
appraisals and outreach to stakeholders. However, several 
factors may continue to limit GSA. For example, the viability 
of swap exchanges may be affected by specific market factors, 
such as the availability of alternative properties. In 
addition, swap exchanges can require developers to spend large 
sums before receiving title to the Federal property used in the 
exchanges.
    In a potentially successful effort in January 2017, GSA 
agreed to a swap exchange with MIT for the DOT's aging Volpe 
Center in Cambridge, Massachusetts. Per the agreement, MIT will 
construct a new DOT facility on a portion of the 14 acre site 
and will receive title to the remaining site. GSA indicated 
that the project, once completed, will provide $750 million in 
value to the Federal Government.
    Our prior work also identified a number of alternative 
approaches to funding real property projects, including long 
term operating leases, land swaps, retained fees such as user 
fees, and enhanced use leases. In March 2014 we reported that 
up front funding is the best way to ensure recognition of 
commitments made in budgeting decisions and to maintain fiscal 
controls. However, obtaining up front funding can be 
challenging. Congress has provided some agencies with specific 
authorities to use alternative funding mechanisms for the 
acquisition, renovation, or disposal of Federal real property 
without full up front funding.
    Projects with alternative funding mechanisms may present 
risks that are shared between the agency and the partner. Some 
of these mechanisms allow the private sector to provide the 
project's capital at their cost of borrowing, which is normally 
higher than the Government's. In some cases, factors such as 
lower labor costs or fewer requirements could potentially help 
balance the higher cost of borrowing.
    Our previous work also identified options for changes 
within the discretionary and mandatory sides of the budget 
structure. Alternative budgetary structures may change 
budgetary incentives for agencies and therefore help Congress 
and the agencies make more prudent long term fiscal decisions.
    Chairman Barrasso, Ranking Member Carper, and members of 
the Committee, this concludes my prepared statement, and I 
would be happy to answer any questions.
    [The prepared statement of Mr. Wise follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Barrasso. Well, thank you to all three of you. We 
will start with rounds of questioning.
    I would like to start with you, Mr. Gelber. So the project 
originally began in 2004. FBI Director Robert Mueller requested 
the GSA recommend a strategy for consolidating the FBI 
Headquarters. In 2011 this Committee passed a resolution 
directing the GSA to investigate the feasibility and the need 
to construct or acquire a new consolidated headquarters 
facility for the FBI. So it has been more than a decade.
    With the decision now to abandon the current procurement, 
are we back at square one?
    Mr. Gelber. Not quite at square one. We have learned quite 
a bit about the FBI's requirements and the ability of the 
surrounding community--the District, Maryland, and Virginia--to 
support this requirement. But from a procurement standpoint we 
will need to initiate a new procurement.
    Senator Barrasso. So then I guess Members of Congress and 
the public would want to know what happens to the millions of 
dollars that Congress has appropriated for this project.
    Mr. Gelber. Those funds are retained in the project budget. 
They are currently not being spent, and they are only able to 
be spent either on this project or in the event that either the 
GSA or the FBI come to Congress with a request to reallocate 
those funds. With congressional consent, we could then do that. 
But the money that has been allocated to this project can only 
be spent on this project.
    Senator Barrasso. And since the process to exchange the 
Hoover Building for a new headquarters facility, since that 
began, that whole process for the exchange began, I think it 
has been unclear to many what the total cost for the project 
actually is, because it was a property exchange.
    So given the FBI's requirements, in your best 
approximation, what is the actual current cost of the project, 
without a potential exchange factored into it?
    Mr. Gelber. I think our cost estimate centered around $1.6 
billion and up. We have always been reluctant to express a 
specific cost because of the valuation of Hoover was something 
we wished the market to determine. But that would be a fair 
minimum.
    Senator Barrasso. At $1.6 billion. OK.
    Mr. Wise, I understand the GSA used build-to-suit leases to 
acquire some of the FBI's field offices across the country. 
Could GSA use a similar approach for the FBI Headquarters?
    Mr. Wise. Senator, yes, that is possible, but there are 
constraints to using that process as well, because one never 
quite knows who the owner is. As you heard in my statement, in 
2017 we reported that there were several FBI leased buildings 
that were owned by foreign entities that were maybe or maybe 
not they were aware of. So that is an issue that certainly 
needs to be studied, especially in a sensitive agency like the 
FBI.
    Senator Barrasso. Thank you, Mr. Wise.
    Mr. Haley, you know, considering that the Federal budget 
rules mandate that capital investments must be, I think, fully 
funded in advance and that OMB initially recommended that this 
project be rolled out in phases, would the FBI consider a 
phased approach for this consolidation as a means to limit cost 
and comply with the Federal budget rules?
    Mr. Haley. Sir, it was a topic early on we have talked 
about a lot. I think the concern with this project--and we are 
familiar with a number of the construction projects that our 
appropriations committees have provided us funding for. You 
would be familiar with our SEGUS facility out in West Virginia, 
our operations down at Quantico where you are talking about 
large thousand acre sites where you can segregate off or 
partition off areas where construction and laydown can occur.
    These sites, in some ways, are so small, all three of them, 
that to put a building into place and to operate that building 
with top secret and classified information, and at the same 
time be trying to run a construction site, that was always a 
concern for us. It was also a concern that we not necessarily 
get to a full consolidation, that somehow that partially be 
completed and in some state of completion, and that doesn't 
necessarily get us to a better situation than we are right now 
with facilities. So incremental funding was not necessarily a 
problem, where we got money over multiple years and then to 
execute the project, but we were concerned about a partial 
moving forward through phases.
    Senator Barrasso. And Mr. Gelber, news of the decision to 
cancel the procurement first broke through various media 
outlets the day before GSA gave an official notice to the 
Members of Congress and the staff. It is unfortunate that 
members of this Committee, the authorizing body for GSA on this 
project, had to learn of this sudden decision in the press. Do 
you agree that GSA should have alerted its authorizing 
committee in advance, and would you pledge to keep us informed 
of major decisions in the future?
    Mr. Gelber. Yes. But I will also add that the disclosure to 
the media prior to the official announcement to the various 
congressional committees was not an authorized disclosure and 
was not part of GSA's plan to inform individuals about our 
decision.
    Senator Barrasso. Senator Carper.
    Senator Carper. Thanks for your testimony here today.
    I mentioned earlier the project and consolidating much of 
Department of Homeland Security at a site called St. 
Elizabeth's in Washington, DC, and I am trying to draw a 
parallel between that project and this project. In that 
project, the decision was made, with the help of GSA, to bring 
many of the far flung assets and operations of GSA not under 
one roof, but at one site, St. Elizabeth's, St. Elizabeth's 
campus, which used to be, for many years, a psychiatric 
hospital for a long time. And that project is being funded over 
several years. It actually goes through a couple different 
appropriation committees for GSA and partly for the Department 
of Homeland Security.
    I am trying to figure out what could be an analogy. For 
example, after having invested hundreds of millions of dollars 
in this project, we can actually see the end not too far down 
the line for actually completing it, if the Administration were 
to come in and say zero funding, we are asking for zero funding 
to complete this project, that would send, frankly, an alarming 
message to us. The Department says they need the money; GSA 
says it is a cost effective way to provide their quarters, 
their operation; and the Administration, frankly, has not been 
generous in their request for continuing the St. Elizabeth's 
redevelopment, but I think at least in one regard they have 
asked for some money.
    This just seems strange to me, the FBI. This just doesn't 
seem right. And everybody acknowledges that the Hoover Building 
is falling down. I think you can drive by and you see the 
netting where the pieces are literally coming off of the 
building. And yet we have an Administration that says after all 
these years of the work to get us to this point, we don't think 
we ought to fund it, and it shouldn't go forward, and that is 
it. I am not aware of any consultation. It just doesn't pass 
the smell test.
    And I would just ask, maybe for Mr. Haley, could you tell 
the Committee who at OMB was involved in this decision? And do 
you know if this included anyone maybe from the White House?
    Mr. Haley. First, I would say your analogy with St. 
Elizabeth, which we looked at quite a bit, from an FBI 
perspective on that, we saw the Coast Guard, which was a 
complete effort on that site to be more kind of in link with 
the FBI. You have an agency that moved on to a department site, 
but it was a complete agency build more than multiple 
department pieces. So that is how we looked at it. And our 
concern was that we end up in a phased approach where we are 
still all over town, and even maybe stretched in different 
ways.
    The conversations with GSA, which have been the 
conversations that have led to this decision, and from our 
standpoint the exchange does make it, the procurement made it 
very risky from our standpoint. With everything said about 
needing a new building and the eagerness of the FBI especially 
to get into a new building as soon as possible was 
overwhelming. But at the same time, the way the exchange was 
done, without the full funding up front, and this project, 
through briefings and our own design and working with GSA, was 
always getting all that funding to be able to move forward. The 
exchange only works when we get out of the Hoover Building. As 
long as we are in the Hoover Building, it depreciates the 
value, and it also creates complexities in how the developers 
were going forward.
    So that conversation back and forth with GSA leading up to 
the decision, our conversations with our own direct oversight 
at OMB, and they were aware of the decision. I am unfamiliar 
with anything above that within the Administration that 
occurred, but from an FBI standpoint, GSA is our landlord. We 
have hundreds of facilities across the country. We are opening 
up a field office in Atlanta next month. It is going to be an 
amazing facility. We have operations that have recently opened 
up in Boston and out in Sacramento. These are amazing 
buildings. Albeit they are leased facilities; they are amazing 
buildings, and they allow our operation to go forward.
    So this was really a GSA-FBI coordination, and from our 
standpoint, the risk of either getting a piece of property that 
would stay dormant for 10 or 15 years----
    Senator Carper. I am going to stop you. I am going to stop 
you, OK? My time is limited. Can you tell the Committee who at 
OMB was involved in this decision? Do you know if it included 
anyone from the White House?
    Mr. Haley. In terms of briefing, it would have been our 
branch personnel and GSA's branch personnel within OMB would be 
the individuals that we would have met with.
    Senator Carper. And I have just a yes or no question I 
would like to ask of Mr. Gelber. As you heard, there were many 
bipartisan concerns and questions about the GSA decision to end 
the procurement process for the consolidation of the 
headquarters, and I imagine you don't have time to answer all 
those questions today. In fact, I am sure we won't have time to 
ask or hear answers for all these questions today, so I am just 
asking you on a yes or no basis, do you commit to fully respond 
to questions for information from any member of this Committee 
so that we can perform our oversight duties? Yes or no?
    Mr. Gelber. GSA will respond to questions from the Chair, 
yes.
    Senator Carper. Only the Chair?
    Mr. Gelber. GSA's response will be in line with the current 
Administration's policy on responding to oversight.
    Senator Carper. Let me just say something, if I could. I 
would say this to my Republican colleagues as well. How would 
you like it if the Democrats had the White House, the majority 
in the House and the majority in the Senate, and we had an 
Administration with a policy that said we are not going to 
respond to your questions when you try to do your oversight? 
You would be outraged.
    This is outrageous. We cannot stand for this. Our job is to 
do oversight. And for our colleagues to sit here and just 
listen to this, I can't believe this. Golden Rule, treat other 
people the way you would--how would you like to be treated that 
way? Well, you wouldn't like it. We need to hear your voices on 
this. This is outrageous.
    Senator Barrasso. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    I agree with Senator Carper, we did not like it. Let me 
begin just by asking----
    Senator Carper. Can I just interrupt for a moment? I want 
to say I spent a whole lot of time with the last Administration 
trying to make sure your questions from the Republican side 
were answered, a lot of time, and I think with some success.
    Senator Rounds. I appreciate your comments. I agree with 
your concern, because we did not like it.
    Let me continue on and just touch on a couple of items. No. 
1, I am just curious. With regard to a desired location, right 
now is there a specific desired location that has been 
determined for a new facility?
    Mr. Gelber. If the question is directed to me, sir, no, 
there is no specific location that has been identified.
    Senator Rounds. So we still have three that we have looked 
at, but we do not have an identifiable location at this point 
for a new facility?
    Mr. Gelber. That is correct, sir.
    Senator Rounds. OK. I understand that we are not at square 
one, but it sounds like we are very close to square one.
    If we were to look at the total values involved in this, we 
would be talking about the value of a new facility, which I 
assume would allow us to consolidate a number of the FBI 
facilities that we are currently leasing, 15 facilities that 
are involved in this. Would those 15 facilities then be 
available or not having their leases renewed, is that a fair 
statement?
    Mr. Gelber. It is, sir.
    Senator Rounds. OK. In doing so, are these owned buildings 
or are these leased facilities?
    Mr. Gelber. The leased facilities are leased by the private 
sector and leased by the Federal Government, by GSA.
    Senator Rounds. So GSA is currently making payments on 
those so that those payments are now reconcilable or at least 
those are recognized in the process. If we build a new 
building, and we actually fully fund it up front, those lease 
payments basically go away, fair to say?
    Mr. Gelber. That is correct, sir.
    Senator Rounds. So there is an ongoing cost savings that 
can be basically applied toward this new location once it is 
determined.
    Mr. Gelber. That is correct, sir.
    Mr. Haley. Sir, one of the original justifications for the 
new building in the consolidation, there were tens of millions 
of dollars in lease payments and other security costs and 
everything from each of those separate leased sites that we 
would have been able to stop paying as we would roll those into 
a campus environment.
    Senator Rounds. But that still exits.
    Mr. Haley. Yes, sir.
    Senator Rounds. OK. The value of the Hoover Building, the 
current value of the Hoover Building today, what is it?
    Mr. Gelber. Sir, that is subject to the way that the Hoover 
Building would be disposed of, and we have been reluctant to 
speak in a public forum about the value of the building because 
we feel it may affect any future procurements regarding the 
disposal of that building.
    Senator Rounds. If you were to build a new facility today, 
what is the timeframe for building that type of a facility?
    Mr. Gelber. It could take between 5 and 7 years, sir, 
including the move.
    Senator Rounds. So we are actually talking about trying to 
determine what the value of the Hoover Building is at some 
point in the future in terms of a payback or at least a partial 
offset of the costs that we are putting in now.
    Mr. Gelber. That is one of the factors that is being 
considered, sir.
    Senator Rounds. Mr. Gelber, you mentioned that the CBO was 
involved in the discussions beginning back in 2011. Could you 
share with us a little bit more about their involvement and 
share with us once again the concern that they expressed about 
having resources available? Can you kind of clarify that a 
little bit, what CBO's position was?
    Mr. Gelber. The Congressional Budget Office role is to 
score or account for these types of major Federal capital 
investments, and their approach--as similar to budget 
committees and the Office of Management and Budget--is that a 
major initiative of this nature must be scored or accounted for 
in the initial year of the transaction. So even though the 
Government is making payments in a lease scenario over a period 
of 20 years, all the cost of that lease must be accounted for 
in the original year of the lease.
    Senator Rounds. Have you ever worked with CBO on other 
projects similar to this before?
    Mr. Gelber. More appropriately, I believe, the Office of 
Management and Budget works with the Congressional Budget 
Office, but we have not directly worked with them.
    Senator Rounds. What was the impact, what was the impact of 
the CBO determination as to that process in terms of making 
this project workable or not under the original format?
    Mr. Gelber. Under the original format, the project would 
score, again, all the funding of the entire project scores in 
the initial year, so we are looking at a up to $2 billion cost 
that has to be accounted for in one budget cycle.
    Senator Rounds. Making it rather difficult to achieve.
    Mr. Gelber. Yes, sir.
    Senator Rounds. Interesting. So part of what we should be 
talking about is if we are looking at any types of arrangements 
like this again in the future, we recognize that we have 
another hurdle that we have to go through in terms of making 
that type of a process work for other smaller projects. Now, I 
understand that when you are talking about a case of where you 
are leasing it, and then you are going to try to sell the 
property that you have for future value, that most certainly it 
seems as though the time value here got away from us because of 
the size of the project.
    Mr. Wise, you mentioned that a little bit in terms of if 
you are looking at actually leaving the Hoover Building for a 
period of time, it means that whoever was going to buy it from 
you would not have access to that property for an extended 
period of time in part because of the large size and extended 
time for creating this new facility. Fair statement?
    Mr. Wise. Yes, sir. And one of the things that I think made 
the swap exchange idea especially challenging for the Hoover 
Building is that, as you kind of allude to and what you are 
saying is there is a long time lag between the time that 
developers expected to build the new FBI building until he gets 
title to the FBI's Hoover Building and the site around it. So a 
developer has to have pretty deep pockets to be able to get 
engaged in a project like that.
    So one of the things that we had talked about in our report 
was you need to look at trying to tighten or lessen the time 
lag so that the relative value of the Hoover Building will not 
deteriorate so much, because it will decline. The longer the 
time lag, the less value the building is to the developer 
because he is waiting and waiting and waiting. In the meantime, 
he is building something.
    Senator Rounds. I appreciate that. Thank you.
    My time has expired, but Senator Carper had mentioned this, 
and I just want to come back. Long term, if we really want to 
make sure that these projects are defensible by both the 
majority and the minority party, I think an effort and an 
interest in cooperating in giving data back to both the 
majority and the minority members on any committee most 
certainly lends to the ability of cooperation that makes things 
a whole lot easier to get done in this body.
    We saw it; it was frustrating for us as well with the 
previous Administration on a number of counts. It is something 
that I think Senator Carper brings up here, and I think it 
should be something that should be seriously considered with 
regard to getting these projects moving, because, as the 
Ranking Member indicated, being able to get data and to feel 
comfortable with the information you are receiving makes things 
go a whole lot easier if you are able to get responses back 
through.
    Senator Carper. Would Senator Rounds yield for just a 
moment?
    Senator Rounds. My time has expired, but I will----
    Senator Carper. Mr. Chairman, can I have 1 minute?
    I just want to thank you for what you have just said. I 
can't tell you how many times, especially on the Committee on 
Homeland Security, which I was privileged to Chair for a couple 
of years, how many times we said at hearings like this what can 
we do to help you do your jobs better, whoever was before us as 
the Federal agency.
    More times than I can count, the word was a one word 
answer: oversight. Do your job. Oversight. And that is what we 
need to do. And there were times when folks in the Obama 
administration were not prompt or fully forthcoming in 
responding, but I don't ever remember an Administration that 
had a policy from the Administration that said you don't have 
to respond to anybody doing oversight except the Chairman of a 
committee. It is a dangerous situation because if the White 
House, if the President is a Democrat, and the minority are 
Republicans, the folks that are usually on the outside, not in 
the White House, they are likely to do better oversight over 
the Administration. You know that, and I know that. And for us 
to have a policy from an Administration that says we are only 
going to respond to inquiries from the Chairman in the 
majority, that is a dangerous precedent, a very dangerous 
precedent.
    Thank you.
    Senator Rounds. Well, let me just add, before calling on 
Senator Cardin, that I stated before the Administration should 
and has a responsibility to be responsive to requests by all 
members, and I would note that Marc Short, who is the White 
House Director of Legislative Affairs, recently wrote to 
Chairman Grassley of his committee stating, ``The 
Administration's policy is to respect the rights of all 
individual members, regardless of party affiliation, to request 
information about executive branch policies and programs.''
    And I am going to ask unanimous consent that letter be 
admitted into the record without objection.
    Mr. Short's letter goes on to say that ``The Administration 
will use its best efforts to be as timely and responsive as 
possible in answering such requests.''
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. So, Mr. Gelber, does the GSA intend to 
abide by the policy that is described by Mr. Short's letter of 
July 20th of this year?
    Mr. Gelber. Yes.
    Senator Barrasso. All right, thank you.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Carper. I just want to say thank you.
    Senator Cardin. Thank you, Mr. Chairman. And I have been on 
this Committee now almost 11 years, and I don't remember ever 
having any disagreements in regards to our oversight of GSA, 
and we have always worked in a non-partisan way because we are 
trying to get the best deals for the taxpayers of this country. 
So I expect that will be continued. And I tend to work through 
staff with Senator Barrasso's and Senator Carper's staff on a 
request for information from GSA as relates to the FBI 
procurement, because I think there are additional documents 
that would be useful for us to see, and I will work with the 
Chairman so that this will be, I hope, a mutual request.
    Mr. Gelber, I want to work with you here. I am really 
trying to get things done here, and I don't understand ``almost 
square one.'' If I understand your authority, you could select 
a site today. There is no problem with the authority to 
announce a location. I understand because you canceled the 
procurement, you need to now explain the rules that you are 
going to operate and give developers an opportunity to come 
forward. By narrowing it to one of the three locations, the 
NEPA has already been done, so that expedites the process.
    So where am I wrong why you cannot move this a lot faster 
than you just said?
    Mr. Gelber. We could in fact select a site, as you stated. 
Our concern is without the full funding and the structure of 
the procurement that we were operating under, we had no 
assurance of being able to complete----
    Senator Cardin. All right. OK. I just want to make sure you 
could move quicker. Congress can help you in those decisions. 
It would have been, I think, very helpful for us if, before you 
terminated, you would have met with and talked with the people 
who have been involved in authorizing and funding this program 
moving forward, because I point out the difference between an 
operating and capital lease could be defined in different ways, 
which raises questions as to whether we should approve lease 
prospectus moving forward where there isn't a full funding 
throughout the entire term, because you characterize it as an 
operating lease. We might think it is a capital lease.
    So I think you are raising an issue here which could 
jeopardize the ability of our agencies to have adequate 
facilities, so work with us. I don't think anybody on this 
Committee wants to delay the FBI having an adequate facility. 
No, we don't want to wait 5 or 6 years. We can get it done 
sooner. But work with us in that regard. We want the best 
location, the best facility, the most efficient for the 
taxpayers in this country, and this Committee will work with 
you in that regard.
    I must tell you, do you have any idea how much money has 
been wasted by what we have done in the last 6 years? Do you 
have any idea how much money the agencies have invested into 
the FBI consolidation; how much time has been spent by your 
agency, by the FBI, by OMB; how much time has been spent by the 
State of Virginia in their proposals and going through what 
they had to do, the State of Maryland, Prince George's County; 
how much money has been spent by the developers to comply with 
mixed messages coming out of GSA? Do you have any idea how many 
millions and millions of dollars have been wasted?
    Mr. Gelber. We are aware of how much we have spent on the 
project, and that is around $20 million to date, sir.
    Senator Cardin. And that is wasted.
    Mr. Gelber. Some of that can be repurposed, but the 
majority, unfortunately, may not be.
    Senator Cardin. Well, I think all of us are concerned about 
waste. We would like to have that $20 million spent so the FBI 
could carry out its mission.
    A question was asked to you by several of us working with 
us to get this done. I want to make sure that it is done in an 
open and fair manner. I want to certainly make sure that the 
jurisdictions that are directly involved, that their 
representatives are fully participating in whatever is done. I 
want to make that clear.
    But I would hope that we could expedite a location. That 
certainly simplifies things. That we could expedite the NEPA 
issues, and we could give you confidence through the 
appropriators and authorizers that we are prepared. We already 
put up $800 million. That is a lot of money. More than $800 
million. I don't want to short change this. Nine hundred 
thirteen million dollars we have already put up that you have. 
That does not include the Hoover Building.
    Senator Rounds, you are right, they will not tell you the 
value of the Hoover Building. It is worth hundreds of millions 
of dollars, we know that.
    So there is already available well in excess of $1 billion 
that has already been appropriated by Congress for this 
project.
    It is clear to me, Mr. Haley, that you do need a new 
consolidated facility, and I appreciate you can't use the 
piecemeal approach because of the reasons you just said. So we 
have to figure out a way, because you hear us nodding our 
heads. To put $2 billion in 1 year's appropriation for one 
building consolidation is not realistic. That is just not 
realistic. So we have to figure out a way to do it, and I would 
really hope that we are not getting to the point that we have 
to hold up every prospectus here not to stop the location, but 
to make sure that we are not going down a path that, 6 years 
after we pass a prospectus, we are back to square one.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, gentlemen, for being here today. In 2011 GAO 
reported that FBI and GSA assessments showed that the FBI 
Headquarters facilities, the Hoover Building and office annexes 
in the national capital region did not fully support the FBI's 
long term security, space, and building conditions 
requirements.
    Mr. Haley, how have the conditions changed since 2011, 
since the GAO's report has come out, and what has been the 
effect of these changes on the FBI's ability to actually meet 
its mission?
    Mr. Haley. Thank you, ma'am. Really, nothing has changed; 
all those issues still exist. If anything, as I mentioned in 
the opening statement, many of the mechanical parts of the 
building--I forgot a prop I was going to bring you, one of the 
pipes that just recently busted. Many of these are rusting from 
the inside out. You have thousands of miles of piping. We had 
Ma Bell phones, gray metal desks, and file cabinets when we 
moved into the Hoover Building.
    It is now a technological hub. Just to move wire from one 
part of the building to the other, going through concrete, the 
facility is not designed for that. Everything takes a 
significant amount of additional funding, a lot of time. There 
is frustration on the operational side because they need 
something today, and it may be months or even years before we 
can get all the pieces in the building.
    Having entities spread out all over town means that you are 
spending much of your day driving from one location to another 
through DC traffic just to try to get around. So those issues 
are still there.
    Senator Ernst. Right. So the condition of the building is 
not getting better over time, the IT struggles are still there, 
and those take time and dollars, right?
    Mr. Haley. Yes, ma'am. We appreciate GSA has recently 
changed the netting which keeps the concrete from falling off, 
because the old netting had to be replaced because it had worn 
out it had been up so long. So those issues are still there, 
and they just continue to get worse.
    Senator Ernst. And you mentioned the time spent traveling 
back and forth between many of the annex buildings. All of that 
costs dollars.
    Mr. Haley. Yes, ma'am.
    And those leases that you had mentioned, sir, we are having 
to renew those leases. In some cases that requires us to re-
compete them for long term, and additional costs are going in. 
Some of the mechanicals that we are going to have to replace in 
the building; you put an HVAC system in, you are expecting it 
to last 20 years, 20, 30 years. We may only be there another 
10. So we have to put infrastructure in that we may not fully 
amortize or get the full use out of.
    Senator Ernst. Right. So a number of issues have been 
identified today. There is a pathway forward, maybe two steps 
back.
    Mr. Wise, what recommendations would you have for GSA to 
help move this project forward in a meaningful manner?
    Mr. Wise. Well, Senator, thank you. I think in the case of 
this project, all the options need to be examined closely and 
analyzed. What are the risks? How long will it take? What are 
the costs and benefits of one site over another or one method 
over another in terms of financing the project? And I think 
that is something that the Committee needs to also look at very 
closely as the options are presented for moving forward.
    It is a complicated arrangement, and clearly the swap 
exchange was a difficult maneuver, a situation where many 
pieces had to fall into place. It was kind of a complicated 
mosaic of effort, and it just didn't really work out, so now it 
really needs to look at what might be feasible going forward. 
And keeping in mind, also, the very real security needs that my 
colleague has brought up here, as well, really has to factor 
in, which is a serious problem on the current facility, 
especially on its north side.
    Senator Ernst. Exactly. Well, I thank you very much. I 
think this is going to be a very complicated issue, especially 
if the swap exchange is not the alternative moving forward. But 
we do have to find a way to make sure that the FBI has a usable 
space, a space that is secure, and where they can actually meet 
their mission requirements.
    With that, Mr. Chair, I will yield back my time.
    Senator Barrasso. Thank you, Senator Ernst.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank you all for being here. I am sorry I missed your 
testimony, but I was able to read this. For me, and I think for 
all of us, you have seen, the collapse of this process for 
securing a replacement raises serious questions.
    Mr. Gelber, as you probably know, I chair the 
Appropriations Subcommittee on Financial Services and General 
Government, which oversees the funding for the GSA. And this 
has been a moving target for us to try to follow. I believe we 
found out the cancellation of this through the newspaper as 
well, rather than informing the Appropriations Committee 
properly, and the rest of Congress in general, as to what was 
going on.
    You already mentioned that the GSA has spent $20 million. 
How much has the FBI spent, Mr. Haley, thus far in this 
project?
    Mr. Haley. I wouldn't want to give you an exact number, 
ma'am, but it has been a significant investment. Much of that 
has been our professional staff, individuals who sit behind me. 
The individual, the engineer that actually built our SEGUS 
facility originally and our biometric facility that you are 
well aware of was brought in to DC to lead this project. He is 
sitting behind me here. So we have invested a lot of 
educational resources on this.
    Now, at the same time, the $500 million that we have 
sitting in our account, our appropriations, we hope that this 
project will take on a similar anatomy like the SEGUS building, 
where we were able to incrementally bring those funds in, and 
at the point that the funding was available, we were able to 
move forward with that capital investment.
    Senator Capito. Yes, I was going to mention, but with 
Senator Cardin I didn't want to mention the great FBI facility 
we have in West Virginia. I didn't want to throw another 
location into the mix, but we do enjoy, and actually, it is a 
wonderful facility in our area. So we are very, very pleased 
about that.
    So, we are at a point where how did we get here and how are 
we going to make improvements. If I heard you correctly, Mr. 
Gelber, did you say that you need the $2 billion in 1 year in 
appropriation before you can move forward?
    Mr. Gelber. If we were to move forward with a Federal 
construction project or a long term lease, that is how the 
project would be accounted under the Federal----
    Senator Capito. Is that the reason you went for the swap 
concept?
    Mr. Gelber. At the end of the day, yes. It was not our 
preferred option, but given our funding constraints that we 
were operating under, and given the inability to gain full 
access to the money in the Federal Buildings Fund, that is why 
we opted for the exchange concept.
    Senator Capito. Have you done swap projects before to this 
magnitude?
    Mr. Gelber. Nothing of this magnitude.
    Senator Capito. Well, I think it might have a little black 
mark by it right now, from what we have seen, the development 
to this point.
    Let me ask you another question, Mr. Wise. In your written 
testimony you stated that GSA employees told you, as part of 
the research for your 2014 report, that part of the appeal of 
the exchange model--and Mr. Gelber just talked about this a 
little bit--was to avoid reliance upon the appropriations 
process. And yet the agencies state that this project failed 
for lack of appropriations sufficient to offset the difference 
between the value of the Hoover Building and the new 
headquarters.
    I think the approach to try to avoid either oversight or 
the congressional appropriations process is, I think, not very 
palatable to those of us who sit here and also those of us who 
sit on the Appropriations Committee and the authorizing 
committee.
    So would you say that was a primary motivation to work in 
this manner, or was it something I am not seeing?
    Mr. Wise. Well, I will leave the motivations up to my 
colleague from GSA to describe, but suffice it to say that swap 
construct is--as I think Michael was saying, it is another way 
to try to move forward on Federal construction with the 
knowledge that it is a very--as Senator Cardin said--a very 
heavy lift to get full funding up front. Now, full funding up 
front is the most cost effective way to build something. That 
is pretty clear. I think everybody agrees on that. Lease 
arrangements, one way or another, normally end up costing more 
for various reasons.
    But in terms of the swap construct, a very key criteria of 
swap construct is that, you need a situation where the 
property--it really helps if the Government need is equal to 
the property that it is giving up. And that was not the case 
here because it was far in excess, so that is why they were 
coming back for additional appropriations. And a project of 
this magnitude is very, very complicated to run under a swap 
construct because, as we talked about in our testimonies, the 
previous experience that GSA had in this area was very limited.
    One example I can give you in San Antonio was a small piece 
of land for a parking garage, several million dollars. And it 
worked out well because they were of commensurate value. The 
private sector really wanted this piece of Federal land, and 
GSA really wanted this parking garage, and they were about 
equal.
    This is a magnitude of much, much greater magnitude and 
complexity. So that was a technique that GSA hoped it could 
work to make this building happen, make the project happen, but 
I think the Hoover Building situation just was too difficult to 
fulfill this way.
    Senator Capito. Could I ask one more question?
    Senator Barrasso. Yes.
    Senator Capito. You know, we are throwing $2 billion around 
like it is a confirmed number, just $2 billion. What kind of 
assurances can you give us here that $2 billion doesn't lead to 
$3 billion? What kind of firm number is that? And are changes 
being made to design? I am sure as you look at this, as you 
move forward, certain needs may change. What kind of confidence 
do you have that $2 billion is either (A) sufficient or not 
enough or too much?
    Mr. Gelber. We, with the FBI, had developed that extensive 
program requirements, which we then developed an independent 
Government cost estimate around that number. We also have the 
bids that were submitted for the project that give us a sense 
of how the market was responding to the request.
    Senator Capito. And they came in at about $2 billion then?
    Mr. Gelber. If GSA had received the funding requested in 
the fiscal year 2017 budget, we would have been able to award 
this project.
    Mr. Haley. Ma'am, I would add, from an FBI perspective, 
that was one of the factors as we, coordinating with GSA, 
agreeing to canceling the procurement, was the concern about 
that with exchange. And as Senator Rounds had mentioned 
earlier, the developer can't get the building until we get out 
of it.
    So as you extend that period on, there was a potential for 
those costs, and we have always--and we have been very clear 
with this with our appropriators, that we were trying to be as 
transparent and honest with the costs that were going to come 
out of CJS, and we did not want to see those costs escalate. So 
as you extend the number of years that this procurement would 
have had to take, and it wasn't just a building, we were 
talking about moving facilities from a number of the sites, 
rose, we were afraid that that cost would come up, and we would 
have to come back in, and those would look like cost 
escalations versus just time and just the cost of the dollar 
going forward.
    Senator Capito. All right. Thank you.
    Thank you, Mr. Chair.
    Senator Rounds [presiding]. On behalf of Chairman Barrasso, 
Senator Gillibrand.
    Senator Gillibrand. Thank you. Thank you, Mr. Chairman.
    Mr. Gelber and Mr. Haley, decisions to cancel the 
procurement were made by both the GSA and the FBI, and the FBI, 
at the time, was lacking Senate confirmed directors. Is there a 
reason you could not have waited for a decision of this 
magnitude to be made once your senior leadership was in place?
    Mr. Gelber. The constraints around the project would not 
have gotten better; the cost of the project would, in our 
minds, continue to have increased. And as Mr. Haley referenced 
and Mr. Wise has also referenced, the value of the Hoover 
property would continue to decrease. So, at the end of the day, 
the situation we faced was, by waiting, we would not learn 
anything new in the process, and the cost of the project, if we 
chose to go forward, would only have increased.
    Senator Gillibrand. To what extent was OMB and the White 
House involved in the decision?
    Mr. Gelber. As we normally do on major project decisions, 
we informed our staff level colleagues at the Office of 
Management and Budget about this matter.
    Senator Gillibrand. But not the White House specifically?
    Mr. Gelber. That is correct. We normally do not engage at 
that level.
    Senator Gillibrand. Who was the highest ranking Federal 
official to personally sign off on the decision to cancel the 
headquarters procurement?
    Mr. Gelber. In terms of the formal approval process within 
the General Services Administration, that would have been the 
Acting Administrator.
    Senator Gillibrand. Do you expect that there will be 
additional costs associated with the FBI remaining in the 
Hoover Building and other leased properties for a longer period 
of time?
    Mr. Gelber. Yes. And we are currently evaluating what those 
costs would be in partnership with the FBI.
    Senator Gillibrand. And what are the additional costs, and 
how do you expect those costs to be paid for?
    Mr. Gelber. We have some discretionary funds out of what we 
refer to as below a prospectus level authority, which are 
projects of under $3 million for a particular task, so we have 
those funds to use. The key question for us is how much do we 
invest in the FBI Hoover Building knowing that we are going to 
move out of it. So we want to ensure the FBI has a usable, safe 
facility, but we also don't want to overinvest in the facility.
    Senator Gillibrand. How do those additional costs compare 
with the project cost escalations that prompted your agencies 
to cancel the new headquarters?
    Mr. Gelber. The concern with the projected cost escalations 
is we weren't sure when and where they would stop, and so, 
given the uncertainty around those escalations, we knew what 
the costs and risks were for remaining in leased space; we knew 
what the costs and risks were for remaining in Hoover. Those 
were--even if they were on par or less than--the concern with 
going forward with the project was the unknowns around where 
the costs would go.
    Senator Gillibrand. Did you include appropriators in those 
conversations?
    Mr. Gelber. We have had a regular cadence of meetings at 
the authorizer and appropriators level throughout the life of 
the project and have been regularly reporting where we stood on 
the project up until our meeting to decide to inform 
individuals that we had canceled the project.
    Senator Gillibrand. Prior to the enactment of the fiscal 
year 2017 appropriations legislation, did you guys communicate 
to the appropriators that the procurement was at risk if that 
bill did not include the entire request in the President's 
budget for $1.4 billion?
    Mr. Gelber. We had regularly communicated that the need for 
funding was key for this project to move forward. Our last 
written communication was in March of this year, where we 
stated that we had met all necessary project milestones to 
proceed with the project, but were awaiting the resolution of 
the fiscal year 2017 budget cycle.
    Senator Gillibrand. Can I just ask you an unrelated 
question that I would like you to provide for the record about 
Plum Island? I have been working with my colleagues from New 
York and Connecticut on legislation to repeal the statutory 
requirement for selling Plum Island, which I believe 
unnecessarily ties the Federal Government's hands and prevents 
you from considering all options for the use of the island, 
including continued Federal ownership by a different agency.
    That said, I would like to ask you a few questions about 
the sale process that you are currently undertaking. And if you 
don't know these answers, just for the record is fine.
    What entity will be required to clean up any environmental 
contamination associated with the Plum Island Animal Disease 
Center, the Federal Government or the buyer?
    Mr. Gelber. Invariably, it is either the Federal 
Government, or if there is anything that hasn't been addressed, 
the Government notifies whoever acquires the property that they 
must be aware of what is on the soil in the property.
    Senator Gillibrand. And will there be stipulations on when 
and how the cleanup has to occur?
    Mr. Gelber. I am not familiar with the specifics around 
that particular issue, but we can get back to you on that.
    Senator Gillibrand. Thank you. And how does GSA propose to 
use the revenue from the sale of Plum Island?
    Mr. Gelber. Normally, the revenues from these sales are 
returned to, I believe, either the Miscellaneous Receipts 
Account to the Treasury or the Federal Buildings Fund. And our 
ability to access either of those accounts, if you will, is 
subject to congressional approval.
    Senator Gillibrand. OK. And has the GSA had discussions 
with U.S. Fish and Wildlife Service about migratory bird and 
endangered species habitat that exists on the island? And how 
does that factor into the sale process?
    Mr. Gelber. I am assuming we did, but I can confirm. As a 
part of our disposal process, we engage with a range of Federal 
agencies whenever we are disposing a particular property.
    Senator Gillibrand. If Congress repeals the statutory 
requirement to sell Plum Island, would other Federal agencies 
like the U.S. Fish and Wildlife Service and the National Park 
Service have an opportunity to acquire the property if they 
wanted to, and what process would that occur?
    Mr. Gelber. My understanding is the property is currently 
under the control and custody of the Department of Homeland 
Security. I may be incorrect about that. But at the point where 
the Department of Homeland Security no longer requires the 
property, it is then made available to other Federal agencies.
    Senator Gillibrand. Great. Thank you so much.
    And thank you, Mr. Chairman, for the hearing.
    Senator Rounds. On behalf of Senator Barrasso, I will 
recognize Senator Cardin.
    Senator Cardin. Thank you. I just want to make a couple 
comments.
    First, there has been a lot of discussion about lease cost 
being more expensive than direct appropriations, and that is 
intuitive and correct, but we would point out that in today's 
economic environment, with the interest rates being what they 
are, there are certain advantages to using long term lease 
purchases, and the cost differential could be not very great. 
Just point that out from what I understand.
    Second, the swap is very unusual for this size. I 
understand that and the reasons it was done. There were three 
developers interested in that financing arrangement, producing 
seven different development alternatives, so there was at least 
interest out there for the Hoover Building. Whether it was the 
best deal for the Federal Government we may never know, but 
there was certainly interest out there.
    And I want to just come back to this last point. GSA has 
the authority to select a location. GSA has the authority to 
figure out what financing mechanism works best. They can 
certainly work with Congress in order to get whatever they 
need. Congress has expressed itself in numerous ways that we 
want to help you. We know that the overall funding in one 
fiscal year is going to be extremely challenging. It is even 
more challenging now that we have terminated the contracts. So 
we have to find out a way to move this quicker than saying it 
is going to take another 4 or 5 or 6 years before we get this 
done, because the FBI can't wait, and taxpayers demand us to be 
more efficient than this.
    So, Mr. Gelber, I just urge you to work with not only 
authorizing, but the appropriating committees. You have a good 
deal of information, working with the FBI, working with what 
has already been developed, to move this project in a fast way, 
consistent with law that you are now in, using a lot of the 
information that has already been obtained. I would just urge 
you to do that so that we can make this project move sooner 
rather than later.
    Thank you, Mr. Chairman.
    Senator Barrasso [presiding]. Well, thank you very much, 
Senator Cardin.
    Any other questions? I know we are in the middle of a vote, 
at the end of a vote. I appreciate everyone being here and 
taking the time as you have.
    I was going to turn to Senator Carper to see if he had any 
additional thoughts or questions.
    Senator Carper. Mr. Chairman, I do have. First, I want to 
say thank you for entering the letter from Senator Grassley, 
July 20th letter from Senator Grassley, from the White House, 
actually, to Senator Grassley. Marc Short, Director of 
Legislative Affairs. It speaks to my concerns about the 
minority, as well as majority, being able to do our oversight 
work.
    Senator Barrasso. And let me just say you have been a 
wonderful partner to work with. I want to continue to work with 
you, and I want to work with you to make sure we get the 
answers that all of us are looking for.
    Senator Carper. Thank you very, very much for that, and I 
return to the compliment to you.
    I would also like to ask unanimous consent to enter into 
the record a letter from Tim Horne, dated June 6th. We had 
submitted some questions of him. I think those questions that 
we had asked of him in my letter to him of June 6th, 2017, and 
we have not received a response.
    Senator Barrasso. Without objection.
    Senator Carper. I would just ask it be made part of the 
record and renew our request for a timely response from the 
folks at GSA. Thank you.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. The other thing I want to do, we have 
folks from GAO that are here, right? Would you just raise your 
hands, please? Raise them high. Hold them up. I just want to 
say, as the former Chairman, now senior Democrat on the 
Committee of Homeland Security and Governmental Affairs, how 
much we appreciate the work that you do.
    I was in a meeting earlier this morning, and one of the 
thoughts that came to mind in that meeting in the Capitol was 
we were talking a bit about budget deficits, and we seem to 
have taken our eye off the ball there, and they continue to 
grow. I think the budget deficit is going to grow by another 
$100 billion this year alone, and we are looking at about a 
$700 billion deficit, up from about $400 billion a couple years 
ago. We peaked at $1.4 trillion and down to $400 billion. Now 
we are back up to about $700 billion, and nobody is really 
paying any attention to that, and that is a cause for concern 
to me, and I know it is to folks from Wyoming, including the 
Senators.
    One of the things that I often like to focus on is the work 
that you do at GAO to the high risk list, and identifying high 
risk ways of wasting money. It is really important work, and 
one of the things that I sought to do--Dr. Coburn did that when 
he was the senior Republican on our Committee, always used that 
as our to do list. Do we need to raise some evidence? We 
probably do. Do we need to cut some spending? We probably do. 
But also, you give us a great roadmap, just a to do list for 
ways that we can save money.
    One of the things that has always confounded me is this 
issue--and we have worked a lot with you on real property 
reforms, Dr. Coburn, Senator Portman, and myself and others, 
and to the extent that the work that was--our work ended up in 
legislation, signed by the last President, on real property 
management.
    How, if at all, does that address or come in contact with 
the particular issue that is before us today? We spent a lot of 
time trying to put together legislation, guidance, and get the 
Administration to work in a more appropriate way with our input 
to save money in the way that we handle property, real 
property. How does that legislation, if at all, affect this 
issue?
    Mr. Wise. Well, Senator, I am sure as you know, real 
property has been on the high risk list for a long time, I 
think since 2003, and one of the key things we looked at--this 
is not necessarily specific to the FBI, but it is certainly 
related--is that one of the elements that we looked at very 
hard over the years is the importance of accurate data in order 
to enable Federal agencies' real property managers to make good 
decisions in what to do with their excess property or how to 
best use what resources they have.
    And all along we have pushed a number of recommendations to 
OMB and GSA along these lines, and to the credit of GSA, they 
made a lot of progress in improving the Federal real property 
profile. Now, the legislation, your bill from 2016, the Federal 
Real Property Reform Act that you sponsored, is----
    Senator Carper. Along with Senator Portman and others.
    Mr. Wise [continuing]. Along with Senator Portman is 
certainly an assist because it gets at something that we think 
is quite important, and that is the ability to give a good 
break to the taxpayer and save money is really much more in 
consolidation of Federal offices into owned facilities versus 
leased facilities. So that somewhat relates to what we are 
talking about today. But it is also a general point that I 
think is very important for overall management of the Federal 
real property portfolio.
    And as a result, we think, and as you mentioned, as the 
bill specifies, improving the data and also looking at postal 
facilities as a potential area that we can consolidate Federal 
offices into where there is space available, because a lot of 
sorting facilities are not sorting much anymore, although----
    Senator Carper. In fact, the number of mail processing 
centers is down. A couple years ago we had 600 of them. They 
are operating now down to about 300 they are operating.
    Mr. Wise. Yes. So there is a lot of potential there, 
although, you know, again, these are more----
    Senator Carper. In fact, my wife and I just drove by one in 
Rockford, Illinois, over the weekend.
    Mr. Wise. The issue with the postal facilities, those are 
much more like factories than they are like office space, so 
they need some resources in order to renovate them to make them 
suitable for office space. But there is a lot of potential for 
consolidation, but again, you know, until you get really a 
solid handle on the data and its accuracy, it is very difficult 
for agencies to make these kinds of decisions.
    So, yes, your point is well taken that the issue around 
management of Federal real property certainly has at least a 
tangential relationship to the FBI issue at hand today.
    Senator Carper. Last thing I would say, Mr. Chairman, 
during my time in State government as the Governor of Delaware, 
we worked then and we still work with a capital budget. We 
have, actually, three budgets; one is the operating budget, one 
is the capital budget, and one is the grant and aid budgets to 
help nonprofit organizations, which is small compared to the 
other two. But we know that the fiscally smart decision for 
providing for space, whether it is for the FBI or for anybody 
else in Federal Government, oftentimes it is for the Federal 
Government to build and own property. That is the smart way to 
do it.
    It is hard--as Senator Cardin has said and others have 
inferred--it is hard to get that kind of huge, like a $2 
million appropriation in a year or maybe over 2 years for 
something like the FBI building. It is just very, very hard to 
do. In the end we save money, we save money over the long haul. 
But the way that our budgeting process works, it does not 
reward that behavior.
    I will ask some questions for the record. One will deal 
with the alternative funding mechanisms that seeks to try to 
get at this conundrum, and we would appreciate your response to 
those questions, all of you.
    Mr. Gelber, we look to hearing from you folks soon and more 
consistently in the future. Thank you.
    And to our FBI brothers and sisters, God bless you. Thanks.
    Senator Barrasso. Well, as we wrap up, I want to make a 
couple observations.
    It is clear from today's testimony that the FBI does need a 
new headquarters; that fixing up the Hoover Building with a 
$100 million backlog of maintenance needs makes little sense; 
that the elaborate plan to swap the Hoover Building for a new 
headquarters facility was, in hindsight, not the best option; 
that we need a new cost effective and achievable plan to get 
the FBI into a new headquarters facility.
    So I would like to ask our witnesses one final question. 
Will you commit to providing Congress a workable solution to 
the FBI's headquarter needs within 120 days?
    Mr. Gelber. Yes, sir.
    Mr. Haley. Absolutely, sir.
    Senator Barrasso. Mr. Wise, they both said absolutely.
    [Laughter.]
    Mr. Wise. I think that is the job of the Administration, 
and we will be happy to come in and evaluate it at some point.
    Senator Carper. Maybe you can give them some advice along 
the way.
    Mr. Wise. Always happy to do that, sir.
    Senator Barrasso. Well, you can expect that this Committee 
will hold another hearing on this subject before the end of the 
year.
    With that, I want to thank all of you for being here. Other 
members may submit questions for the record. The hearing record 
will be open for 2 weeks. I want to thank the witnesses for 
their time and their testimony today.
    The hearing is adjourned.
    [Whereupon, at 11:25 a.m. the Committee was adjourned.]

                                 <all>
</pre></body></html>
